CERTIFICATE OF COMPLIANCE
No. 19-1181

THE ESTATE OF THOMAS STEINBECK, GAIL KNIGHT STEINBECK,
AND THE PALLADIN GROUP, INC.,
Petitioners,
vs.
WAVERLY SCOTT KAFFAGA, as Executor of the Estate
of Elaine Anderson Steinbeck,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the brief for amici curiae
contains 5,857 words, excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

s/Nikolina Gurfinkel
Nikolina Gurfinkel
Sworn to on this 29th day of
April, 2020

